August 14, 2009

SYLVESTER BLACK
VICE PRESIDENT, WESTERN AREA OPERATIONS

SUBJECT:         Audit Report – Vehicle Management – National Trailer Lease Renewal –
                 Western Area (Report Number NL-AR-09-008)

This report presents the results from our nationwide audit of the National Trailer Lease
renewal.1 The objectives of our self-initiated audit were to determine whether the lease
renewal was effective and economical (Project Number 09XG020NL000). This report
focuses on trailer lease requirements in the Western Area. See Appendix A for
additional information about this audit.

Conclusion

The National Trailer Lease renewal was not as effective and economical as it could
have been, because the Western Area did not have a comprehensive management
process in place to routinely identify its trailer requirements, ensure proper trailer use,
and adjust trailer inventory based on continued need.

As a result, the U.S. Postal Service incurred more than $130,800 in unnecessary lease
costs over a 6-month period. We estimate the Postal Service could save about $2.1
million in lease costs over the next 10 years, if the Western Area improves its processes
for trailer fleet management and returns unneeded trailers. See Appendix B for our
detailed analysis of this topic, and Appendix C for our monetary impact calculation.

We recommend the Vice President, Western Area Operations:

1. Develop a comprehensive process to routinely identify trailer requirements and
   manage trailer inventory and use.




1
  On July 1, 2006, the Postal Service executed a renegotiated 6-year lease renewal of the September 2000 National
Trailer Lease with Transportation International Pool (TIP), Inc., a wholly owned trailer and equipment-leasing
subsidiary of General Electric Company.
Vehicle Management – National Trailer Lease Renewal –                                                NL-AR-09-008
 Western Area




2. Verify the actual return of leased trailers to the leasing contractor that management
   identified during the audit,2 saving the Postal Service about $700,000 over the next
   10 years.3

3. Analyze the number of trailers needed to transport mail and equipment and return
   unneeded trailers to Postal Service Headquarters for reallocation or return to the
   leasing contractor, saving the Postal Service about $1.5 million over the next
   10 years.

4. Analyze storage requirements and procure storage space in the most cost-effective
   manner.

Management’s Comments

Management agreed with our findings and recommendations. They have already
begun implementing the four recommendations and expect full implementation by
September 1, 2009. Management generally agreed with the calculated monetary
savings; however, they expect the actual savings to differ by the amount associated
with 10 returned Des Moines Bulk Mail Center trailers management will reallocate to the
Omaha Processing and Distribution Center (P&DC).

Management emphasized the steps they have taken to proactively manage the leased
trailer fleet, which has resulted in the identification of 119 trailers returned to the leasing
contractor, with estimated savings of over $430,000 annually. We have included
management’s comments, in their entirety, in Appendix D.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the findings and
recommendations and corrective actions should resolve the issues identified in the
report.

We will report a total of $2,279,428 in monetary impact in our Semiannual Report to
Congress, including $130,840 in questioned costs and $2,148,588 in funds put to better
use.

The OIG considers recommendations 1, 3 and 4 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. We appreciate the prompt action already taken and
will continue working with management to obtain support for those actions in the
process of closing the recommendations. These recommendations should not be
2
  During the course of our audit, we determined that Postal Service management had already taken action to identify
and return 23 trailers to the leasing contractor.
3
  The standard OIG practice for calculations of this type employs a 10-year cash flow methodology, discounted to
present value.
                                                           2
Vehicle Management – National Trailer Lease Renewal –                         NL-AR-09-008
 Western Area


closed in the Postal Service’s follow-up tracking system until the OIG provides written
confirmation that they can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody Troxclair, Director,
Transportation, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Steven J. Forte
    Susan Brownell
    Jordan M. Small
    Cynthia F. Mallonee
    Bill Harris




                                                   3
Vehicle Management – National Trailer Lease Renewal –                                         NL-AR-09-008
 Western Area


                        APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

During fiscal year 2000, the Postal Service began a major, multi-phased corporate
initiative to terminate local trailer contracts, centralize trailer acquisition at Postal
Service Headquarters, and commit to a single national contractor.

Initial National Trailer Lease – In September 2000, the Postal Service signed a National
Trailer Lease contract for 4,475 trailers with TIP, Inc., a wholly owned trailer and
equipment-leasing subsidiary of General Electric Company.




          The Postal Service uses a unique numbering system for TIP “National Trailer Lease”
          trailers it assigns to facilities. We photographed these trailers, beginning with the
          numbering sequence “50Z”, at the Des Moines Network Distribution Center (NDC) on
          May 20, 2009.


The anticipated cost of the 12-year contract plus the renewal option was more than
$201 million. The new centralized national contract would:

   •   Reduce the average cost to lease a trailer from xxxxxxxxxxxxxxx per day.

   •   Potentially save the Postal Service more than $2.2 million annually.

   •   Provide the flexibility to maintain trailer inventory only when and where trailers
       are needed, because unneeded trailers could be returned to the leasing
       contractor.

National Trailer Lease Renewal – On July 1, 2006, the Postal Service executed a
renegotiated 6-year lease renewal. The new agreement reduced the lease cost to
xxxxxxx per trailer per day and was intended to:

   •   Improve inventory controls by requiring the leasing contractor to install satellite-
       tracking devices on all trailers by November 1, 2006.

   •   Save money by allowing the Postal Service to return unneeded trailers.
                                                    4
Vehicle Management – National Trailer Lease Renewal –                                               NL-AR-09-008
 Western Area




Under the National Trailer Lease, Postal Service officials allocated 1,353 trailers to the
Western Area, which subsequently assigned them as follows:

    •   85 trailers to the Denver P&DC
    •   210 to the Des Moines NDC4
    •   167 to the Kansas City NDC
    •   270 to the Minneapolis/St. Paul NDC
    •   354 to the Seattle NDC
    •   133 to the Phoenix P&DC.

The Postal Service allocated the remaining trailers among five other Western Area
facilities.5

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our nationwide audit were to determine whether the National Trailer
Lease renewal was effective and economical. Although this is a nationwide audit, we
used a regional approach because individual Postal Service areas control the National
Trailer Lease fleet. This report is the ninth in a series of reports and focuses on the
Western Area.

During our work, we interviewed Postal Service officials at headquarters and in the
Western Area and visited the Denver P&DC, the Des Moines, Kansas City,
Minneapolis/St. Paul, and Seattle NDCs, and other facilities in the Western Area. We
observed and photographed operations, inspected trailers, interviewed supervisors and
employees, and examined Postal Service policies and procedures. We used
computer-assisted analysis techniques to examine computer data in management’s
Transportation Information Management Evaluation System for the period May 26,
2008, through November 25, 2008.

In addition, we collected and examined yard management reports and information on
trailers that were out of service for repairs. We did not audit or comprehensively
validate the data; however, several control weaknesses constrained our work. For
example, some computer records had missing or inaccurate data. Although data and
other limitations constrained our work, we compensated by applying alternate audit
procedures such as examination of source documents, observation, physical inspection,
and discussions with appropriate officials.

We examined the National Trailer Lease and other relevant Postal Service documents
and records. We discussed our conclusions and observations with management
throughout our audit and included their comments where appropriate.

4
  Effective August 1, 2009, the Postal Service changed the names of Bulk Mail Centers (BMC) to Network Distribution
Centers (NDC).
7
  There were no TIP trailers assigned to the Denver NDC.
                                                          5
Vehicle Management – National Trailer Lease Renewal –                                 NL-AR-09-008
 Western Area




We conducted work associated with this performance audit report from November 2008
through August 2009 in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform audit work to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives. We
discussed our observations and conclusions with management on July 1, 2009, and
included their comments where appropriate.

PRIOR AUDIT COVERAGE

The OIG has worked with the Postal Service to improve vehicle management and
reduce vehicle costs. As indicated by the chart below, since April 2005, we have issued
eight audit reports that identified potential trailer lease savings exceeding $26 million.
The reports used the same methodology and addressed vehicle management
weaknesses similar to those identified in this report. The Postal Service agreed with all
recommendations.

                                                                                      Monetary
                                                  Report          Final Report
                 Report Title                                                          Impact
                                                  Number              Date
                                                                                    (in millions)

Vehicle Management – National Trailer Lease –
                                                NL-MA-05-001     April 21, 2005     Not applicable
Unresolved Audit Recommendations

Vehicle Management – National Trailer Lease –
                                                NL-ID-06-002    February 7, 2006    Not applicable
A.T. Kearney, Inc. Analysis

Vehicle Management – National Trailer Lease
                                                NL-AR-06-013   September 29, 2006       $1.9
Requirements – Capital Metro Area

Vehicle Management – National Trailer Lease
                                                NL-AR-07-005     June 15, 2007          $4.8
Renewal – Southwest Area

Vehicle Management – National Trailer Lease
                                                NL-AR-07-009   September 28, 2007       $7.5
Renewal – Pacific Area

Vehicle Management – National Trailer Lease
                                                NL-AR-08-005    August 27, 2008         $4.1
Renewal – Eastern Area

Vehicle Management – National Trailer Lease
                                                NL-AR-08-007   September 25, 2008       $2.2
Renewal – Southeast Area

Vehicle Management – National Trailer Lease
                                                NL-AR-09-004     March 26, 2009         $5.7
Renewal – Great Lakes Area

                    Total                                                              $26.2




                                                   6
Vehicle Ma
         anagement – National Traile
                                   er Lease Rene
                                               ewal –                                                  NL-AR-0
                                                                                                             09-008
 Western Area


                                  APPE
                                     ENDIX B: DETAILED
                                                     D ANALYSIIS

      al Trailer Le
Nationa           ease Fleet Managem
                                   ment – Westtern Area

We conccluded the National Trrailer Lease   e renewal was
                                                      w not as effective
                                                                    e        annd economical
as it couuld have been because  e four plantts had moree trailers than needed. Of the 1,3353
trailers leased in th
                    he Western Area, management assigned 1,0        001 to the NDCs
                                                                               N     and
allocated d the remaining 352 trrailers to se
                                            even other facilities
                                                       f          in the Westerrn Area.

In analyzzing the us se of NDC and
                                 a P&DC TIP    T trailers, we identiffied the maxximum num    mber
of trailerrs used at each
                     e     of the 11 facilitiess6 during th
                                                          he period May 2008 thrrough
Novemb   ber 2008. Our
                     O analysiss revealed underutiliza     ation of trailers at fourr (two P&DCCs
and two NDCs) of the  t 11 facilities with leeased trailerrs in the We estern Area  a. Specifica
                                                                                               ally,
we found the Posta   al Service only
                                 o    used:

      •     59 of the 85
            5          5 trailers (69
                                    9 percent) leased at th
                                                          he Denver P&DC to move
                                                                              m     mail.
      •    190 of the 210 trailers (90
                                    ( percentt) leased att the Des Moines
                                                                    M     NDC C to move mail.
                                                                                          m
      •    250 of the 270 trailers (93
                                    ( percentt) leased att the St. Paul NDC to move
                                                                               m     mail.
      •    128 of the 133 trailers (96
                                    ( percentt) leased att the Phoennix P&DC too move maiil.




Thereforre, the Postal Service did not nee     ed 71 trailers. Our ana  alysis did not
                                                                                   n reveal
material underutiliz
                   zation of traailers at the other seve  en facilities, including the Seattle
NDC, wiith leased trailers in thhe Western Area. The      ese conditio ons occurred because
Postal Service
       S        man nagement did d not have    e a compre ehensive ma   anagementt process in n
place to routinely id
                    dentify its trrailer requirrements or adjust traile er inventoryy based on

6
    These nu
           umbers represe
                        ent the highest day of utilizatio
                                                        on during the approximate
                                                                      a           6-m
                                                                                    month period analyzed.
                                                                                                 a
                                                            7
Vehicle Management – National Trailer Lease Renewal –                                     NL-AR-09-008
 Western Area


continued need.

The Postal Service’s general investment policy states that requirements must be
documented in detail so that approving officials can make informed procurement
decisions. Further, in justifying the need for the National Trailer Lease renewal contract,
management stated the centralized national contract would provide the flexibility to
maintain trailer inventory only when and where trailers were needed because unneeded
trailers could be returned to the leasing contractor.

The Postal Service had taken some proactive measures in managing overall inventory.
For example, since January 2008, local and area officials reduced, or planned to
reduce, the number of leased trailers from 1,353 to 1,200. We identified 23 of these
trailer returns during the course of our audit. In addition, based on our
recommendations, local and area officials agreed to return an additional 48
underutilized trailers to the leasing contractor.

We estimate that the Postal Service incurred more than $130,800 to lease the
unneeded trailers over a 6-month period, and it could save about $2.1 million by
improving its processes for trailer fleet management and taking advantage of the lease
provisions that allow it to return unneeded trailers. See Appendix C for detailed
calculations.

The Western Area also improperly used TIP trailers for storage. For example, we
observed the Denver P&DC used 14 trailers – or almost 25 percent of its leased fleet –
for this purpose. Area-wide, we observed 73 trailers that were used to store equipment.
This occurred because the Western Area did not have a comprehensive process to
ensure the proper use of trailers including identifying trailer storage requirements. Local
managers stated that Western Area NDCs and other local facilities used trailers to store
excess equipment because of inadequate storage space. The practice of storing
equipment in trailers leased for transportation was unneeded and costly.




               The Seattle P&DC used non-roadworthy trailers as a less expensive method
               for storing equipment. We photographed these trailers on May 7, 2009.




                                                   8
Vehicle Management – National Trailer Lease Renewal –                        NL-AR-09-008
 Western Area


A Postal Service Headquarters policy letter dated August 11, 2004, requires that
management analyze and validate trailer storage requirements. The letter also
stipulates it is Postal Service policy to meet storage requirements with non-roadworthy
trailers at lower rates.




                                                   9
Vehicle Management – National Trailer Lease Renewal –                                                      NL-AR-09-008
 Western Area

                                                           APPENDIX C: ESTIMATED SAVINGS

                                                         Questioned Costs7 – Unneeded Trailers


                                                                                Denver         Des Moines         Minneapolis /       Phoenix
                                                                                P&DC              NDC             St. Paul NDC         P&DC      Total
             Leased Trailer Count                                                  85               210                   270              133   698
             Less: Number of Trailers Utilized on Highest Day                      59               190                   250              128   627
             Number of Trailers that should have been
             returned to the vendor during 6-month period                          26                20                   20                5     71

             Postal Service identified trailers for return during
             our review                                                            8                 10                    5                0     23
             Addition trailer returns local and area officials
             agreed to based on our audit                                          18                10                   15               5      48

             Total Trailer Returns                                                 26                20                   20                5     71


           Postal Initiated Missed Opportunity: Daily lease rate of $10.07 per day x 23 trailers x 183 days* = $42,385

           Postal Agreed Missed Opportunity: Daily lease rate of $10.07 per day x 48 trailers x 183 days* =                       88,455

           Total Missed Opportunity =                                                                                           $130,840

           * Day count from May – November 2008 = 183 days




7
    Unrecoverable costs that are unnecessary, unreasonable or an alleged violation of law or regulation.
                                                                                    10
Vehicle Management – National Trailer Lease Renewal –                                                   NL-AR-09-008
 Western Area

                                                  Funds Put to Better Use - Postal Service Initiated8

Project Year         0         1             2           3            4                5        6           7            8          9           10

Fiscal Year        2009      2010          2011        2012          2013             2014    2015         2016         2017      2018         2019         Total

Lease
                 ($7,045)   $84,538      $84,538      $84,538       $84,538      $84,538     $84,538     $84,538       $84,538   $84,538     $84,538      $838,332
Amount

Discounted
                 ($7,045)   $81,679      $78,917      $76,248       $73,670      $71,178     $68,771     $66,446       $64,199   $62,028     $59,930      $696,021
Amount9


                                                  Funds Put to Better Use - Postal Service Agreed

Project Year            0       1            2           3             4               5        6           7             8         9           10

Fiscal Year        2009       2010         2011        2012          2013             2014    2015         2016         2017      2018         2019         Total

Lease
                ($14,702)   $176,426     $176,426     $176,426    $176,426       $176,426    $176,426    $176,426   $176,426     $176,426    $176,426    $1,749,562
Amount

Discounted
                ($14,702)   $170,460     $164,696     $159,127    $153,745       $148,546    $143,523    $138,670   $133,980     $129,450    $125,072    $1,452,567
Amount

                                       Postal           Postal
                                       Service          Service
                                      Initiated         Agreed                Total
    Total Expenditures                $838,332         $1,749,562           $2,587,894
    Net Present Value                 $696,021         $1,452,567           $2,148,588

Indemnity at 1/12 of annual rate = $21,747 ($7,045 + $14,702) (Deducted from current year savings only)

Discount rate @ 3.5 percent

Note: The analysis above does not include additional costs that may be incurred to find alternatives for storage of mail equipment.



8
 Funds that could be used more efficiently by implementing recommended actions.
9
 The standard OIG practice for calculations of this type employs a 10-year cash flow methodology, discounted to present value by applying factors published by Postal
Service Headquarters Finance.
                                                                                      11
Vehicle Management – National Trailer Lease Renewal –       NL-AR-09-008
 Western Area

                        APPENDIX D: MANAGEMENT’S COMMENTS




                                                    12
